         OFFICE OF INSPECTOR GENERAL 




                                  Catalyst for Improving the Environment


Quick Reaction Report




       City of Bad Axe, Michigan -
       Unallowable Costs Claimed
       Under EPA Grant XP98578301
       Report No. 08-2-0095

       February 27, 2008
Report Contributors:                 Yeon Kim
                                     Khadija Walker
                                     Matthew Simber
                                     Janet Kasper




Abbreviations

EPA             U.S. Environmental Protection Agency
Grant           Grant XP98578301
Grantee         City of Bad Axe, Michigan
OIG             Office of Inspector General




Cover photo:	     The building pictured is a pumping station installed along the pipeline between
                  the City of Bad Axe and the Water Treatment Plant in Port Austin, Michigan.
                  (EPA OIG photo)
                     U.S. Environmental Protection Agency                                               08-2-0095 

                     Office of Inspector General                                                 February 27, 2008





                     At a Glance
                                                                         Catalyst for Improving the Environment


Why We Did This Review          City of Bad Axe, Michigan – Unallowable Costs
                                Claimed Under EPA Grant XP98578301
The U.S Environmental
Protection Agency (EPA)
                                  What We Found
Office of Inspector General
(OIG) conducted a review of
                                 The City of Bad Axe (grantee) purchased two parcels of land totaling $51,297
earmarked grants known as
                                 without obtaining prior approval as required by Federal regulations. The grantee
Special Appropriation Act
                                 also paid an engineering firm $211,143 to design a water treatment facility but
Projects issued to local and
                                 did not use the design. As a result, EPA needs to recover $262,440 under Grant
tribal governments. We
                                 XP98578301.
selected the City of Bad Axe,
Michigan, for review.
                                  What We Recommend
Background
                                 We recommend that the Regional Administrator, EPA Region 5, recover the
The City of Bad Axe received     unallowable land purchase and design costs totaling $262,440.
an EPA Special Appropriation
Act Project grant,
XP98578301. The purpose of
the grant was to provide
Federal assistance for
engineering, planning, and
constructing a 17-mile
drinking water pipeline from
Port Austin, Michigan, to the
City of Bad Axe.



For further information,
contact our Office of
Congressional and Public
Liaison at (202) 566-2391.

To view the full report,
click on the following link:
www.epa.gov/oig/reports/2008/
20080227-08-2-0095.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL




                                        February 27, 2008

MEMORANDUM

SUBJECT:               City of Bad Axe, Michigan – Unallowable Costs
                       Claimed Under EPA Grant XP98578301
                       Report No. 08-2-0095


FROM:                  Melissa M. Heist
                       Assistant Inspector General for Audit

TO:                    Mary A. Gade
                       Regional Administrator
                       EPA Region 5


This report contains time-critical issues the Office of Inspector General (OIG) identified and
recommends recovery of Federal funds drawn down by the recipient. This report represents the
opinion of the OIG and does not necessarily represent the final position of the U.S.
Environmental Protection Agency (EPA). EPA managers will make final determinations on
matters in this report.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rate in effect at the time – is $73,616.

Action Required

In accordance with EPA Manual 2750, Chapter 3, Section 6(f), you are required to provide us
your proposed management decision for resolution of the findings contained in this report before
any formal resolution can be completed with the recipient. Your proposed decision is due in
120 days, or on June 26, 2008. To expedite the resolution process, please email an electronic
version of your proposed management decision to kasper.janet@epa.gov.

We have no objections to the further release of this report to the public. This report will be
available at http://www.epa.gov/oig. If you have any questions, please contact Janet Kasper,
Director, Assistance Agreement Audits, at 312-886-3059 or the email address above.
Purpose
The Office of Inspector General is reviewing Special Appropriation Act Project grants to identify
issues warranting further analysis. This includes reviewing the total project costs incurred by
selected grant recipients. During our review of the Special Appropriation Act Project grant
awarded to the City of Bad Axe, Michigan (grantee), we identified the following conditions that
we believe require immediate attention. The grantee claimed and was reimbursed for
unallowable land purchase and design costs under Grant XP98578301.

Background
U.S. Environmental Protection Agency (EPA) Region 5 awarded Grant XP98578301 (grant) on
May 13, 1998. The purpose of the grant was to provide Federal assistance for engineering,
planning, and constructing a 17-mile drinking water pipeline from Port Austin, Michigan, to the
City of Bad Axe. In 2002, the grantee and Port Austin formed the Huron Regional Water
Authority (Authority). In 2004, EPA transferred the grant to the Authority because the grantee
could not provide the required matching contribution. As a match to the grant, the Authority
funded the design and construction of the water treatment plant that connects to the pipeline.
The grant’s project period was from June 1, 1998, to September 30, 2005. The grantee received
$4,573,751 in EPA funds for the pipeline before EPA transferred the grant.

Scope and Methodology
We performed our examination in accordance with generally accepted government auditing
standards, issued by the Comptroller General of the United States, with the exception of
understanding information control systems as required under Section 7.23 and a complete
understanding of internal controls as required under Section 7.16. We did not obtain an
understanding of information control systems since the review of general and application
controls was not relevant to the assignment objectives. We also did not obtain a complete
understanding of the internal control system. Instead, we gained a general understanding of the
processes the recipient used to account for funds and focused our review on the source
documents that support costs claimed under the grant. We did not test the recipient’s grant
drawdown process or process for entering information into its accounting system.

We conducted our field work between November 13 and December 21, 2007. We made a site
visit to the grantee and performed the following steps:

   •	 Reviewed the grantee’s accounting records, supporting documentation for drawdowns,
      invoices, bank statements, and cancelled checks.
   •	 Conducted telephone interviews of current and former engineering firms’ personnel.
   •	 Conducted interviews with grantee personnel.
   •	 Visited the pumping stations and pipeline hydrants constructed under the grant.
   •	 Toured the drinking water treatment plant connected to the pipeline.
   •	 Discussed issues related to this grantee with the Region 5 project officer.




                                               1

Findings
The grantee purchased two parcels of land totaling $51,297 without obtaining prior approval as
required by Federal regulations. The grantee also paid an engineering firm $211,143 to design a
water treatment facility but did not use the design. As a result, EPA needs to recover $262,440
under Grant XP98578301.

Unallowable Cost of Land Purchases

The grantee claimed costs for two land purchases without obtaining prior approval from EPA.
The land was purchased for two of the three pumping stations along the pipeline between Bad
Axe and the water treatment facility in Port Austin. According to Office of Management and
Budget Circular A-87, Section 15.b.(1):

        Capital expenditures for general purpose equipment, buildings, and land, are
        unallowable as a direct cost except with the prior approval of the awarding
        agency.

The grantee incurred $51,297 for the land purchases without obtaining EPA approval.
Therefore, that cost is unallowable under the grant.

Unallowable Cost of Plant Design

The grantee paid an engineering firm $211,143 to design a water treatment plant. However, this
design was not used in the final construction of the plant. The introductory paragraph of Office
of Management and Budget Circular A-87, Attachment B, states:

        A cost is allowable for Federal reimbursement only to the extent of benefits
        received by Federal awards and its conformance with general policies and
        principles....

The Federal award and the grantee did not receive any benefits from the design. When the grant
was transferred over to the Authority, the Authority funded the design and construction of the
water treatment plant as a match to the EPA funds. The Authority did not use the design the
grantee purchased with grant funds because the Authority selected a different plant location and
a different design. As a result, the costs totaling $211,143 for the unused design are unallowable.

Recommendation
 1. 	   We recommend that the Regional Administrator, EPA Region 5, recover the unallowable
        land purchase and design costs totaling $262,440.

Grantee Comments
On January 23, 2008, we held an exit conference with the grantee and EPA Region 5. The
grantee agreed to the factual accuracy of the costs questioned. However, the grantee said that it


                                                2

informed EPA of these costs through the supporting documentation it had submitted to EPA for
reimbursements. The grantee said that since EPA reimbursed the costs the grantee considered
the costs approved under the grant.

OIG Response
EPA did not provide any documentation or rationale to change our position. We followed up
with EPA Region 5 regarding the reimbursement requests, and the Region referred us to the EPA
Finance Center. The Finance Center had no supporting invoices associated with reimbursement
requests from this grantee. We continue to believe that EPA Region 5 should recover the
unallowable land purchase and design costs totaling $262,440.




                                              3

                                 Status of Recommendations and
                                   Potential Monetary Benefits
                                                                                                                          POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                         BENEFITS (in $000s)

                                                                                                              Planned
    Rec.    Page                                                                                             Completion   Claimed    Agreed To
    No.      No.                         Subject                       Status1         Action Official          Date      Amount      Amount

     1        2     Recover the unallowable land purchase and design      O        Regional Administrator,                 $262.4
                    costs totaling $262,440.                                           EPA Region 5




1    O = recommendation is open with agreed-to corrective actions pending;

     C = recommendation is closed with all agreed-to actions completed;

     U = recommendation is undecided with resolution efforts in progress 





                                                                              4

